<html>
<title> - COAST GUARD AND NATIONAL TRANSPORTATION SAFETY BOARD CASUALTY INVESTIGATION PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        COAST GUARD AND NATIONAL
                      TRANSPORTATION SAFETY BOARD
                     CASUALTY INVESTIGATION PROGRAM

=======================================================================

                               (110-130)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
42-582 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Higgins, Kathryn O'Leary, Board Member, National Transportation 
  Safety Board...................................................     4
Richards, Anne L., Assistant Inspector General for Audits, 
  Department of Homeland Security................................     4
Watson, IV, Rear Admiral James, Director of Prevention Policy for 
  Maritime Safety, Security, and Stewardship.....................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    37

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Higgins, Kathryn O'Leary.........................................    50
Richards, Anne L.................................................    60
Watson, IV, Rear Admiral James...................................    69

                       SUBMISSIONS FOR THE RECORD

Higgins, Kathryn O'Leary, Board Member, National Transportation 
  Safety Board, responses to questions from the Subcommittee.....    57

[GRAPHIC] [TIFF OMITTED] T2582.001

[GRAPHIC] [TIFF OMITTED] T2582.002

[GRAPHIC] [TIFF OMITTED] T2582.003

[GRAPHIC] [TIFF OMITTED] T2582.004

[GRAPHIC] [TIFF OMITTED] T2582.005

[GRAPHIC] [TIFF OMITTED] T2582.006

[GRAPHIC] [TIFF OMITTED] T2582.007

[GRAPHIC] [TIFF OMITTED] T2582.008

[GRAPHIC] [TIFF OMITTED] T2582.009

[GRAPHIC] [TIFF OMITTED] T2582.010

[GRAPHIC] [TIFF OMITTED] T2582.011



     HEARING ON COAST GUARD AND NTSB CASUALTY INVESTIGATION PROGRAM

                              ----------                              


                         Tuesday, May 20, 2008,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. This hearing is called to order. Good 
morning, everyone.
    Today we convene this hearing to receive a report issued by 
the Department of Homeland Security's Office of Inspector 
General regarding the Coast Guard's marine casualty 
investigation program and the legislative proposal made by the 
National Transportation Safety Board to be the lead 
investigative agency for those accidents which the Board elects 
to investigate.
    The Subcommittee has been examining the multiple facets of 
the Coast Guard's marine safety program throughout much of the 
110th Congress. We began the examination in August of last year 
when witnesses from the maritime industry testified regarding a 
number of troubling concerns they had about a loss of 
professional expertise among Coast Guard marine inspection 
personnel, unprofessional treatment, and extreme delays in 
pending rulemakings.
    Many of these problems were subsequently documented in a 
report developed by retired Coast Guard Vice Admiral James C. 
Card at the request of the Coast Guard Commandant, Admiral Thad 
Allen, following the Subcommittee's hearing. Admiral Card's 
report detailed not only the loss of professional competence 
among marine inspectors and investigators, it indicated that 
frequent transfers prevent marine safety personnel from 
developing technical or geographic expertise and it documented 
a deterioration in the relationship between the Coast Guard and 
the maritime industry regarding the achievement of safety 
goals.
    The allision of the COSCO Busan with the San Francisco Bay 
Bridge in November 2007 and the report developed by the 
Department of Homeland Security's Inspector General on the 
Coast Guard's response to that incident have demonstrated in a 
single event many of the challenges the Coast Guard's marine 
safety program faces, particularly in the casualty 
investigation mission, which is the cornerstone of all marine 
safety missions.
    With the issuance of today's report, however, we finally 
have quantifiable assessments of the Coast Guard's challenges 
in the casualty investigation program, and we have clear and 
disturbing conclusions: the Coast Guard's marine casualty 
investigations program is both ``hindered by unqualified 
personnel,'' by ``investigations concluded at inappropriate 
levels,'' and by ``ineffective management of a substantial 
backlog of investigations needing review and closure.'' Ladies 
and gentlemen, this is simply unacceptable and we can do much 
better, and we must.
    Just to look at one of these findings, the lack of 
qualified personnel, I note that this was foreshadowed in the 
IG's study of the COSCO Busan accident, which found that five 
of the six individuals assigned as casualty investigators to 
Sector San Francisco were not qualified. For the life of me, I 
cannot figure out how we can avoid accidents from happening in 
the future if the very people who are investigating them are 
not qualified to do the investigation. Something is simply 
wrong with that picture.
    The report that we received from the IG today indicates 
that, among a sample of individuals assigned as casualty 
investigators throughout the Coast Guard, more than half were 
not qualified as casualty investigators. Perhaps more 
staggering to me, however, is that during last month's hearing 
on the COSCO Busan, Admiral Brian Salerno, who is in charge of 
the Coast Guard's marine safety program, testified that he did 
not know how widespread the lack of qualifications among 
casualty investigators was.
    We look forward to the testimony of Ms. Anne Richards, 
DHS's Assistant Inspector General, who will expand on the IG's 
findings. However, let me note that one of the most troubling 
findings of the IG report is that some of the challenges we 
will discuss today were identified more than 10 years ago by 
the Coast Guard itself, and even as far back as the seminal 
oversight report, Semi-Paratus: The United States Coast Guard, 
1981, issued during the 97th Congressional session.
    In other words, the Coast Guard's challenges with the 
marine safety program far predate the service's assumption of a 
expanded responsibilities following 9/11. While these new 
responsibilities make finding balance among all missions much 
more challenging, they also make it much more important.
    Frankly, as anyone who follows this Subcommittee knows, I 
find it to be a disservice to the American people when 
Government kicks around the same issues year after year or, in 
this case, decade after decade. The marine safety mission is a 
critical mission performed by our thin blue line at sea, the 
United States Coast Guard, and it needs to adequately serve the 
safety needs of the maritime industry.
    While I appreciate the efforts that the Commandant has 
taken to strengthen the program, including the requests of 276 
new billets in marine safety, I believe that the only way to 
ensure that the Coast Guard's marine safety program is staffed 
by qualified and experienced personnel will be the enactment of 
legislation that codifies new processes and procedures to 
ensure that robust standards are in place and met by the marine 
safety program. For that reason, I believe that the enactment 
of the Coast Guard Authorization Act, H.R. 2830, which passed 
the House of Representatives, even with a presidential veto, by 
a resounding 395 votes to 7 is absolutely critical.
    Against this backdrop, we will also hear today from the 
National Transportation Safety Board regarding their proposals 
to align their relationship with the Coast Guard regarding the 
investigation of major marine casualties so that it parallels 
their relationship with the modal administrations of the United 
States Department of Transportation. The Board's proposal would 
provide NTSB with the legislative authority to take the lead in 
important marine casualties, an authority that they already 
have for all the other modes.
    Given that the Coast Guard infrequently empanels Marine 
Boards to investigate major casualties, they have done so only 
twice in the past eight years, it would seem that the NTSB, 
which has conducted 23 marine casualty investigations in the 
same period, is in many ways already fulfilling this role.
    Since this is the first time that our Subcommittee has met 
since our reauthorization legislation passed the House, I take 
this moment to thank on the record all the Members of our 
Subcommittee for doing outstanding work, because without the 
outstanding work of this Subcommittee, there is absolutely no 
way that we would have been able to get the vote that we got on 
the floor of the House.
    With that, I yield to my colleague and the former Chairman 
of this Committee, Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman, very much, for 
holding today's very important hearing. I believe you are aware 
that Ranking Member LaTourette, while he is not here now, is 
supposed to be here very shortly. As a result, I would ask 
unanimous consent to insert his prepared statement into the 
record.
    Mr. Cummings. So granted.
    Mr. LoBiondo. The Subcommittee will be hearing from the 
Department of Homeland Security's Office of the Inspector 
General regarding their review of the Coast Guard's marine 
investigation program. I am concerned by the report's findings 
that many of the Coast Guard's investigating officers do not 
meet the qualification standards prescribed for those positions 
and that the service has relaxed its review and management of 
the program.
    I am encouraged by the Coast Guard's positive response to 
the report's recommendations. However, I would like to hear 
more regarding the plans of the Coast Guard and how they will 
put into place the different measures to improve the 
investigation process.
    I am also concerned about the scope of the new authorities 
being proposed by the National Transportation Safety Board, 
which would authorize the Board to establish itself as the lead 
investigating agency at its own choosing and without regard or 
consultation with the Coast Guard. This policy could have the 
effect of muddying the waters farther, allowing the two 
agencies to move forward with competing investigations with 
different aims and needs. I look forward to discussing the 
proposed language further with the witnesses to determine if 
such an expansion is necessary.
    Finally, I know there has been some valid concerns about 
the ability of the Coast Guard to conduct marine casualty 
investigations. I would like the record to reflect that the 
investigation concluded by the Coast Guard in response to the 
Athos I oil spill on the Delaware River a few years ago was 
handled very professionally and was completed in a timely 
manner. I want to commend them for it.
    Mr. Chairman, I want to again thank you for the recognition 
and thank you for holding this very important hearing.
    Mr. Cummings. Thank you very much.
    Mr. Coble.
    Mr. Coble. Mr. Chairman, I have no detailed opening 
statement. I will just reiterate what I have said previously at 
these various hearings. I think the American people probably 
get more bang from its buck with the U.S. Coast Guard than any 
other Federal entity known to man, and I look forward to 
hearing the testimony today, and thank you for scheduling this 
hearing.
    Mr. Cummings. Thank you very much.
    Let me be clear that, as I have said many times and I 
reiterate, I am the biggest fan of the Coast Guard. But I am 
also the biggest critic, because I want it to be the very, very 
best that it can be because there is so much that depends on 
it. All of our efforts are aimed at trying to strengthen the 
Coast Guard so that it can be the very, very best that it can 
be not just for the present, but for generations yet unborn.
    With that, we will now hear from our witnesses. We welcome 
all of you. We will hear from Ms. Anne Richards. She is the 
Inspector General for Audits with the Department of Homeland 
Security. Then we will hear from Rear Admiral James Watson, who 
is the Director of Prevention Policy for Marine Safety, 
Security, and Stewardship, United States Coast Guard. Then we 
will hear from Kathryn Higgins, who is a Board Member with the 
National Transportation Safety Board.
    With that, we will now hear from you, Ms. Richards.

TESTIMONY OF ANNE L. RICHARDS, ASSISTANT INSPECTOR GENERAL FOR 
  AUDITS, DEPARTMENT OF HOMELAND SECURITY; REAR ADMIRAL JAMES 
WATSON, IV, DIRECTOR OF PREVENTION POLICY FOR MARITIME SAFETY, 
 SECURITY, AND STEWARDSHIP; AND KATHRYN O'LEARY HIGGINS, BOARD 
          MEMBER, NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Richards. Good morning, Chairman Cummings and Members 
of the Subcommittee. I am Anne Richards, Assistant Inspector 
General for Audits for the Department of Homeland Security. 
Thank you for the opportunity to discuss our report on the 
Coast Guard's management of the marine casualty investigations 
program.
    I would first like to express our appreciation to the Coast 
Guard's Office of Budget and Programs, as well as the staff 
assigned to the marine casualty investigation program, for 
their timely and thorough responses to my staff's requests for 
information and documentation.
    Our audit was conducted at the request of the Committee on 
Transportation and Infrastructure and the Senate Commerce, 
Science, and Transportation Committee. My testimony will 
address three areas of concern identified in our audit. They 
are, first, the training, experience, and qualification of 
marine casualty investigations; second, the levels at which 
marine casualty investigations are conducted; and, third, the 
Coast Guard's process for reviewing and closing its backlog of 
marine casualty investigations.
    Concerning the training, experience, and qualifications of 
investigators, we found that 15 of the 22 marine casualty 
investigators in our sample were not qualified to conduct 
marine casualty investigations based on the standards 
applicable during our audit period. This problem can be 
attributed to inadequate management oversight and internal 
controls to ensure effective assignment, training, and 
development of qualified marine casualty investigators across 
the Coast Guard.
    The Coast Guard's 1988 standard for determining who was 
qualified to conduct marine casualty investigations, which was 
in effect at the time we analyzed our sample, required a 
combination of experience, investigative tasks, and training. 
To be considered pre-qualified for the marine casualty 
investigations program, personnel had to be qualified as a Hull 
or Machinery and Small Vessel Inspector, or be trained in port 
operations as a Boarding Officer, Facility Inspector, and 
Harbor Safety Officer.
    The 1988 standard also required that personnel 
satisfactorily complete specific investigative tasks and 
satisfactorily complete the basic marine investigator training 
course.
    Seven of the 22 investigators reviewed at the five 
locations visited during our audit met the pre-qualification 
standards by either fulfilling all port operations requirements 
or through a combination of inspector qualifications. The 
remaining 15 marine casualty investigators, or 68 percent of 
the investigators we reviewed, were not qualified under the 
1988 standard. Of particular concern were four investigators 
who did not meet any of the requisite training, experience, or 
qualification requirements, and did not attend the basic marine 
investigator training course.
    In August 2007, the Coast Guard revised the qualifications 
for marine casualty investigators by updating the tasks that an 
investigator must perform to qualify for the position. The 
revised qualifications also removed the pre-qualification 
requirement of being a Hull or Machinery and Small Vessel 
Inspector. According to the Coast Guard, knowledge in these 
specialty areas is essential to the ability of the 
investigators to correctly identify the causes of marine 
casualties and issue appropriate safety alerts and 
recommendations. Consequently, removing the standard may 
negatively affect the qualifications and capabilities of Coast 
Guard marine casualty investigators.
    The Coast Guard claims the pre-qualification standard as a 
Hull or Machinery and Small Vessel Inspector are still 
required, although not specifically outlined in the August 2007 
standard, since this pre-qualification is a prerequisite for 
attending the basic marine investigator training course. 
However, we found that five of the 15 investigators that we 
reviewed that had attended the basic course did so without 
meeting any of the prerequisites for attendance. Further, the 
current prerequisites for the course call for certification as 
a Hull or Machinery or a Small Vessel Inspector, which we 
believe degrades the prerequisites.
    The problem of unqualified marine casualty investigators 
can also be attributed to the lack of a clear and desirable 
career path for investigators and the Coast Guard's decision to 
reduce from four years to three years the tour of duty as a 
marine casualty investigator, which hinders investigators in 
acquiring the experience needed for career development.
    In contrast, civilian marine casualty investigators are not 
subject to the three year tour of duty rotation standard. Over 
time, civilian investigators can gain a greater knowledge of 
specialties, such as local waterways and industries or 
experience in enforcing maritime regulations. Of the 22 marine 
casualty investigators we reviewed, one was a civilian. In 
fiscal year 2007, the Coast Guard reported there were six 
civilians serving as full-time marine casualty investigators. 
To its credit, as part of its efforts to enhance the marine 
safety program, the Coast Guard is planning to add civilian 
investigator positions.
    Unqualified marine casualty investigators are not a new 
issue to the Coast Guard. Coast Guard studies in the mid-1990s 
of various aspects of the marine casualty program also 
identified many of these same problems with marine casualty 
investigator qualifications. Although the Coast Guard studies 
included recommendations to address these problems, there were 
little progress made in this area.
    The second area I want to discuss concerns the level at 
which marine casualty investigations are conducted.
    The Coast Guard has guidance identifying the appropriate 
level to conduct an investigation based on the severity of the 
incident. The levels of marine casualty investigations are: 
preliminary investigations, which are initial investigative 
efforts; data collection activity investigations, which usually 
consist only of collecting basic factual information; informal 
investigations, which are less exhaustive than formal 
investigations, but determine and report on the causes of the 
casualty; and formal investigations, which are reserved for the 
more serious or significant incidents in which the most 
investigative value can be gained.
    Data provided by the Coast Guard showed that between 
January 1st, 2003 and October 31st, 2006, 93 percent of all 
marine casualty investigations were conducted at either the 
preliminary or data collection activity level, the two lowest 
levels of effort that consists only of collecting information 
and do not require an analysis of cause. Only 13 of 15,000 
investigations were conducted at the formal level.
    Our detailed review of a sample of 145 marine casualty 
investigations from the five Coast Guard locations visited 
showed that 53 percent of the investigations were conducted at 
a lower level than that recommended by Coast Guard guidance. 
The Sector commands have the leeway to conduct investigations 
at other than the recommended level; however, to maintain 
control over the program, the Sector commands should document 
departures from Coast Guard guidance.
    We also compared an extract of 15,327 marine casualty 
investigations contained in the Coast Guard's database against 
the Coast Guard's guidance on the recommended levels of 
investigation. From this comparison, we identified 1,255 cases 
which were investigated at a lower level than prescribed by 
Coast Guard guidance. As a result of formal and informal 
investigations conducted at the lower data collection activity 
level, causal factors were not always determined. Without such 
determinations, the Coast Guard may have lost the opportunity 
to issue safety recommendations or alerts to prevent or 
minimize the effect of similar casualties.
    Finally, we found the Coast Guard Headquarters was not 
timely in its review and closure of marine casualty 
investigations. On November 9th, 2006, Coast Guard Headquarters 
had a backlog of 4,240 investigations, of which 2,466, or 58 
percent, have been awaiting review and closure for more than 
six months. One Headquarter staff member was responsible for 
reviewing and closing all of the investigations. This function 
is only one of several functions performed by this staff 
member.
    To reduce the backlog, the Coast Guard resorted to a mass 
closure of investigations without thorough review. On September 
29th, 2006, Coast Guard closed 3,848 investigations that it 
deemed low risk. However, based on the data provided by the 
Coast Guard, there were 194 informal investigations and one 
formal investigation included in this mass closure project. 
Although the Coast Guard deemed them low risk, we considered 
the investigations as high risk because they involved serious 
incidents requiring complete causal analysis.
    Coast Guard studies dating to 1994 have identified these 
same basic problems affecting the marine casualty investigation 
program. In September 2007, the Coast Guard issued a plan for 
strengthening the program. This plan included recommendations 
similar to those made in 1994 and in our audit report. Coast 
Guard senior leadership must take seriously implementing these 
recommendations to have a lasting impact on the marine casualty 
investigations program.
    Mr. Chairman, Members of the Committee, this concludes my 
statement. I would be pleased to answer any questions you may 
have.
    Mr. Cummings. Thank you very much.
    Rear Admiral James Watson.
    Admiral Watson. Good morning, Chairman Cummings, 
Representative LoBiondo, Members of the Subcommittee.
    Thirty years ago, when I entered the Coast Guard, it was 
not uncommon to lose whole ships to the sea, inspected ships 
with professional crews like Edmund Fitzgerald, The Poet, Ocean 
Ranger, and Marine Electric. Poor designs, loading, training, 
and maintenance led to structural failures. The Coast Guard 
investigated and analyzed each casualty and made the necessary 
changes to design, construction, manning, and inspection 
standards. Today, the risk of a serious marine casualty on an 
inspected vessel is less than one in a million, but we can do 
better.
    Just one year into George Washington's first term, 
Alexander Hamilton created the U.S. Revenue Marine Service, 
which is today's Coast Guard. He charged our first officers 
never to forget that their seafaring countrymen are free men 
impatient of domineering government officials. He charged them 
to carry out the law and warned that sloppy work would create 
clamor, disgust, and alarm. The combination of maritime 
service, leadership, professional law enforcement has 
characterized the Coast Guard for 218 years.
    Your alarm regarding our casual investigation program has 
reverberated throughout the Coast Guard. Nothing gives us more 
resolve than suggesting we have neglected Alexander Hamilton's 
warning.
    In response to the questions you raised, I can tell you we 
currently have 136 persons assigned to marine casualty 
investigating officer billets. 110 of those persons are 
certified as marine casualty investigators; the other 26 are 
apprenticed investigators. Coast Guard-wide, we have a total 
448 civilians, officers, and warrant officers who are certified 
marine casualty investigators. Every Coast Guard sector and 
marine safety unit has at least one certified casualty 
investigator; most have more. But we are completing a review of 
all personnel conducting marine casualty investigations and 
will assign veteran marine casualty investigators back to 
investigation billets to fill critical gaps. Our military 
workforce is perfectly suited to adjust when necessary.
    Ultimately, the Coast Guard's marine safety program, 
including marine casualty investigations, will have to grow to 
match the growth of the marine industry. By this time next 
year, we plan on having a marine investigation center of 
expertise and over 40 new investigator billets.
    The Coast Guard and the NTSB are each authorized to 
investigate major marine casualties. NTSB has a staff of 16 and 
investigates about seven marine casualties a year; Coast Guard 
provides the immediate response to all reported marine 
casualties and completes about 5,000 investigations a year. 
Unlike the NTSB, Coast Guard investigations must go beyond 
determination of the cause and determine if a violation of law 
or regulation warrants administrative, civil, or criminal 
action. Our overall marine safety mission, which includes 
search and rescue, pollution response, waterways management, 
and marine inspection, also requires characteristics unique to 
Coast Guard investigations, such as speedy dissemination of 
safety alerts, notice to mariners, and policy updates.
    We strongly believe that the existing statutory and 
investigatory regimes work well and should not be changed. 
Neither agency's role in casualty investigations should be 
diminished. Any change would seriously disrupt the existing 
well-considered statutory balance and interagency cooperation 
between the Coast Guard and the NTSB.
    NTSB primacy in marine casualty investigations would not 
only disrupt the good order and discipline of the U.S. maritime 
community, it would also proclaim to governments around the 
world that the Commandant of the United States Coast Guard has 
been summarily demoted, a message we do not want to send.
    The Coast Guard is keenly aware of what is at stake for 
America's waterways, our economy, and for the thousands of 
people who go to sea. We stand ready to work with the NTSB and 
Congress to address all the marine casualty investigation 
issues in the context of the existing statutory and 
investigatory framework.
    I look forward to this hearing and responding to your 
questions.
    Mr. Cummings. Thank you very much.
    Ms. Higgins, I don't usually do this, but the Rear Admiral 
just said something I want you to answer, to save us some time. 
He feels that NTSB taking over the responsibilities that you 
all are proposing would, in the eyes of the world, I think he 
said, be a demotion of the Commandant. Would you address that 
in your opening statement, please?
    Ms. Higgins. Mr. Chairman, thank you, and Mr. LaTourette 
and other Members of the Committee. Let me just say that 
Admiral Allen is a personal friend of mine and I have the 
highest regard for him and all of the members of the Coast 
Guard, many of whom I consider good friends. Our objective is 
in no way to diminish the role of the Coast Guard or to send 
any signal that would in any way indicate any kind of demotion 
in terms of the important role that they play.
    As you know, the National Transportation Safety Board is an 
independent Federal agency charged by Congress with 
investigating every civil aviation accident in the United 
States and significant accidents in other modes of 
transportation--railroad, highway, marine, pipeline, and 
hazardous materials--and issuing safety recommendations aimed 
at preventing future accidents.
    I want to talk today about our request to modify the 
authority we currently have to investigate marine accidents.
    The Board proposes to have the right to elect to lead or 
have primary status in major marine investigations. This 
proposal is not intended to serve as an expansion of the 
Board's authority, but to provide the clear authority if at any 
time in the immediate aftermath of a marine casualty there is a 
disagreement between the Safety Board and the Coast Guard over 
interpretation of the regulations we have jointly issued. Such 
authority is consistent with what we now have in other modes of 
transportation.
    The Safety Board and the Coast Guard currently enjoy a good 
working relationship; however, there is no assurance that a 
disagreement concerning primacy in a high-profile marine 
accident can be resolved in the short time frame necessary to 
respond quickly and efficiently. We believe that in the 
aftermath of an accident there should be no confusion or 
uncertainty about which Federal agency has the lead and which 
investigative protocol will be followed.
    The Safety Board and the Coast Guard take different 
approaches to accident investigation. We use a party system to 
leverage the resources of technical experts from operators, 
manufacturers, and professional organizations. They provide us 
specialized knowledge to help develop the factual record, and 
the Coast Guard is almost always a party to our marine 
investigations and, under our legislation, would have a 
statutory right to party status.
    We may also convene a public hearing to gather additional 
data. That factual information gathered from various sources is 
routinely released to the public to inform them of the progress 
we are making. After the record is developed and analyzed, the 
Board then discusses the report and deliberates on findings of 
probable cause and recommendations in a public meeting.
    Coast Guard investigations, as Admiral Watson has 
indicated, address law enforcement as well as safety 
considerations, but the cause is not determined in a public 
meeting. The Coast Guard may also convene a Marine Board of 
investigation, but it has not done so regularly in recent 
years.
    The Safety Board enjoys a worldwide reputation for 
technical excellence. Many of our marine investigators, 
although they are small in number, hold the highest U.S. Coast 
Guard licenses, are vessel masters or chief engineers. We also 
have investigators with extensive experience as Coast Guard 
marine inspectors and marine investigators. Our investigators 
also include specialists in other engineering, operations, and 
human performance disciplines. And we have staff dedicated to 
the analysis of ship voyage data recorders and they can draw on 
years of Safety Board experience in reading out cockpit voice 
recorders and flight data recorders.
    Just last week, the International Maritime Organization 
adopted a code for safety investigations into marine 
casualties. Reflecting the current practice in many countries 
and the growing trend in many others, the code states: ``a 
marine safety investigation should be unbiased to ensure the 
free flow of information to it. In order to achieve the 
outcome, the investigator carrying out a marine safety 
investigation should have functional independence from: the 
parties involved in the marine casualty or marine incident; and 
anyone who may make a decision to take administrative or 
disciplinary action against an individual or organization 
involved in that incident.'' The Safety Board has that 
independence.
    The Coast Guard will always be in charge of rescue, 
response, security, and port safety. Their investigations and 
investigators are geared to frequent and routine accidents and 
the Safety Board has no intention or capability to take over 
that role. We excel at the unusual accidents, which are often 
the most serious and also, fortunately, the most rare. It is 
only on those that the Safety Board seeks clear and unambiguous 
authority to lead. This approach works very well in our 
aviation, rail, and pipeline investigations, and will work 
equally well in the future for marine investigations.
    I would be happy to answer any questions.
    Mr. Cummings. I want to thank all of our witnesses for your 
testimony.
    Ms. Richards, there were several items that the Committee 
suggested that the Inspector General's Office might examine, 
but to which you did not devote much attention in your report. 
For example, the Committee suggested that the IG examine 
whether any changes to current statutes would clarify the Coast 
Guard's responsibilities for marine casualty investigations and 
reports. To this, the report responded that there are some 
conflicting interpretations in applications of the Coast 
Guard's September 2002 policy letter, such as regarding the 
question of what constitutes a loss of propulsion. You also 
suggested that dollar estimates for damages in the various 
categories of investigations should be updated.
    Are there any other suggestions that you would have to make 
to us with regard to potential statutory changes?
    Ms. Richards. No, sir. When we started the audit, we were 
looking at the broad spectrum, but when we found the problems 
in the qualifications of the marine casualty investigators and 
the issues on what level they were actually completed the 
investigations, we concentrated our efforts on those issues, 
believing that the Coast Guard needed to address those first, 
and that there would be time to look at the broader issues 
after those critical issues had been addressed.
    Mr. Cummings. On that note, you noted in the report that 
the Coast Guard marine casualty investigation program needs 
additional qualified personnel, and you have recommended 
increasing the number of civilians in the casualty program or 
extending the tour of duty for Coast Guard personnel. Can you 
comment on how many personnel the Coast Guard needs overall in 
the casualty investigation program to conduct all the casualty 
investigations at the recommended level?
    Ms. Richards. We did not complete a workload analysis, in 
part because, with the investigations that have been done being 
at levels other than what was recommended by the Coast Guard 
guidance, the amount of time it took to complete those 
investigations wouldn't shed accurate light on the full 
staffing that would be needed by the Coast Guard. We would ask 
that the Coast Guard complete a workload analysis to project 
how many investigators they need total.
    We did suggest that increasing the number of civilian 
investigators would be beneficial to the Coast Guard in part 
because as the civilians do not rotate, similar to the military 
members, they would have time to develop the local expertise in 
that particular waterway or the industry at a particular port. 
The Coast Guard has a number of civilian investigators 
currently, but we believe that they should look into increasing 
that number.
    Mr. Cummings. Now, Rear Admiral, I heard what you said 
about the image of the Commandant, and certainly we do not want 
the image of the Commandant diminished in the least bit. But I 
guess one of the things that I am concerned about is 
effectiveness and efficiency. I often talk about how we can get 
caught up in a culture of mediocrity.
    I talk about that with regard to Katrina, where not, thank 
God, the Coast Guard was great, but other agencies were caught 
up in a culture that did not allow us to respond the way we 
should have responded. And in this instance I think when we are 
talking about the NTSB doing investigations, there have been 
times in the past when the Coast Guard was of the belief that 
there may have been a conflict of interest and asked the NTSB 
to intervene. Is that correct?
    Admiral Watson. Yes, sir.
    Mr. Cummings. Did you see that as might possibly 
diminishing the image of the Commandant?
    Admiral Watson. No, sir..
    Mr. Cummings. So, in this instance--and I realize that the 
NTSB--and I want you to be ready for this, Ms. Higgins--has a 
limited budget. We saw that when we were working on the ALJ 
situation. The NTSB was very sensitive about the little bit of 
money that they have and how tight things are. We are familiar.
    But here we are, the NTSB asking to take on--although you 
were very careful in your testimony to say we are really not 
trying to get more authority here, but there are some things we 
need to be in a position to do, but no matter how you look at 
it, it is the probability of taking on some more work, and I am 
just trying to figure out how does this all come together. In 
other words, I take it that there are cases, based upon your 
testimony, that the NTSB would look at and say, wait a minute, 
this is something that we really need to be involved in.
    Tell me the kinds of facts or factors that would cause you 
to be able to get in a case under the proposed changes, that 
you are not able to get into now. Do you understand the 
question?
    Ms. Higgins. Yes, sir. Let me just say that I think we look 
at this request--and we think of it really as a modest change--
as not changing the underlying guidelines or criteria that we 
use to select accidents. We are looking at this essentially to 
be a tiebreaker in the case of high profile accidents where 
there is a dispute. And I am not suggesting that happens very 
often. Right now, because of the people involved, we have a 
very close working relationship.
    But essentially the criteria we use is the definition that 
is in the statute of major marine casualty. We also look at 
some other factors in terms of the cost involved_there is a 
dollar value assigned to it. We use the term catastrophic, 
which, for example, was applicable in the Ethan Allen accident, 
where it was not on navigable waters, so the Coast Guard wasn't 
involved. We use that criteria, which is in our statute, to be 
able to look at that accident, even though it was under State 
jurisdiction.
    So, fundamentally, we think the criteria are not going to 
change. But we want to make sure we have that authority in our 
statute, just as we have the authority in aviation to take the 
lead, and all of what that means. And it really means following 
our protocol, so that it is clear that we are the spokesperson, 
and our investigator is in charge.
    There was a question or comment made earlier about parallel 
investigations. We fully expect, as with the FAA, that the 
Coast Guard would continue to carry out its investigation if 
they think that there are enforcement issues that have to be 
addressed. That is not in conflict. In fact, that happens now. 
What we want is to be sure that, in a major casualty like the 
COSCO Busan, there is one voice speaking to the public about 
the accident, that the facts are developed under the guidelines 
that we have put forth, and that we work cooperatively. And, 
again, it mostly works, but there have been some examples where 
it hasn't.
    I hope that answers your question.
    Mr. Cummings. Yes, you did. Now, you used the word 
tiebreaker, isn't that right? Didn't you use that word?
    Ms. Higgins. That is my word, yes, sir.
    Mr. Cummings. Who would break that tie right now? Right 
now.
    Ms. Higgins. Right now it would be a standoff. If we 
couldn't agree, presumably, we would both move forward.
    Mr. Cummings. So both of you would be doing investigations. 
And what you are saying is that it would be better if there was 
this tiebreaker and with the NTSB, I guess, being more of an 
independent sort of agency. Am I right?
    Ms. Higgins. That is the way our statute was written.
    Mr. Cummings. Right. I understand.
    Ms. Higgins. Congress wanted us to have the independent 
responsibility to look at all the modes of transportation, 
including marine.
    Mr. Cummings. Okay.
    Ms. Higgins. Because if you are the regulator, you do the 
certification, a lot of these issues come into play, and it is 
important, I think, when Congress created the statute 40 years 
ago, that they wanted somebody who didn't have that 
responsibility, who wasn't the enforcement agency, wasn't the 
regulator, who wasn't the certifier, who didn't issue the 
licenses to be able to look impartially at all those issues. 
And it has worked very well, but we want to make sure that in 
the event that there is that kind of disagreement with the 
Coast Guard, that we could, by statute, assert the lead in an 
important marine investigation.
    You made the point about resources. We are not asking. We 
would like more resources, but they are not reflected in the 
President's budget. So we are not going to have more 
investigators. We don't anticipate we are going to have the 
resources to do many more investigations than we do. We are 
pretty selective about the ones where we want to assert our 
lead. We just want to be sure that in the event of a dispute 
that can't be resolved through the informal process of our 
office working with the Coast Guard, that we can say we want to 
take this and we have got the authority to do it.
    Mr. Cummings. In other words, these are cases that you 
would be investigating, probably, no matter what. But with this 
tiebreaker situation, it would allow you to, I guess, to work 
closely with the Coast Guard to move forward. Is that basically 
what you are saying? Hopefully so you would be more effective 
and efficient.
    Ms. Higgins. Exactly. This issue of efficiency, I asked the 
staff to put together--we now have seven open investigations. 
None of them are older than a little over a year old, a year 
and a couple months old. In the last 10 years, with our limited 
staff, we have issued 22 reports and 17 briefs, and a total of 
244 recommendations, half of those to the Coast Guard, and we 
closed half of those, 120, acceptable.
    So when we pick accidents, we are pretty selective, but we 
get the job done. We have had some problems in the past with 
backlog, we admit that, but in the last couple of years I think 
we had a GAO report that we paid attention to. We have really 
improved our operations. So we want to make sure that we can 
continue to focus on the most difficult high profile accidents, 
because we think those have the biggest payoff in the long-run 
in terms of safety.
    Mr. Cummings. Just one last question, then I will come back 
later. Rear Admiral Watson, respond to what she just said. It 
sounds like it makes sense to me. Maybe I am missing something. 
She is talking about effectiveness and efficiency; talking 
about a tiebreaker situation; talking about NTSB, which is 
supposed to be the more independent agency; not really trying 
to take away any authority, I don't think. I am just trying 
figure out--I just need your response on that.
    Admiral Watson. Yes, sir. What my point was is that when 
Congress changes the legislative authority of the Coast Guard 
to be able to manage when it is going to do an investigation 
and when it isn't, shift primacy to another agency, that 
appears to everyone around the world as a type of a demotion. 
It is an appearance thing. We shift the lead to NTSB on a 
regular basis right now.
    The system that we have, working under the Memorandum of 
Understanding between the two agencies, works very well and, in 
fact, I think it sends a much more powerful statement when the 
Commandant, who has the authority to do an investigation, 
voluntarily says I think this is one that ought to be given to 
the NTSB to lead because there is involvement of a Coast Guard 
operation with respect to that particular incident.
    It could be the VTS, it could be a marine inspection, it 
could be a buoy out of place. And we have been doing that. The 
system that we have with the authorities that both agencies 
have right now works very, very well. I think the improvements 
that have been made in the marine industry bear this out.
    Mr. Cummings. I think that--and then I will turn it over to 
Mr. LaTourette, but in my opening statement I talked about how 
some of these issues have been passed on year after year, 
decade after decade, and I do believe that it was the actions 
of this Committee, and perhaps the Senate, that caused action 
to take place with regard to marine safety. And I give credit 
to both sides; it is not a Democrat thing, it is not a 
Republican thing. I think we all had something to do with that. 
I think we saw significant movement--significant--with regard 
to marine safety.
    I guess what my concern is that I would hope that everybody 
who takes on the position of Commandant would be as good as 
Admiral Allen, and his decision-making. He has caused this 
Committee to have a tremendous amount of trust and faith in 
him. But I am just wondering when a new Commandant comes in, or 
in future generations, when we all are having hearings up in 
Heaven,--hopefully, we won't be having hearings----
    [Laughter.]
    Mr. Cummings. I just want to relax.
    [Laughter.]
    Mr. Cummings. Anyway, I just want to make sure that we put 
in what is necessary to make sure that it works. You follow 
what I am saying? I don't think we can depend just upon people. 
So sometimes you need to put in mechanisms so that it makes 
people's jobs easier. But I understand what you are saying.
    Admiral Watson. Well, I had one more point, sir. The 
tiebreaker concept, that could be driven by the amount of 
interest that there is in a particular marine casualty; it may 
not be driven by anything other than that. We don't know. You 
are suggesting that the authority should be given to the 
National Transportation Safety Board to make that decision.
    The unintended consequence of that could be--the focus of 
any national Marine Board investigation is just to find the 
cause of the casualty. What if there is a situation where there 
needs to be some discipline there, that it needs to be done 
fast and information needs to be moved out to the Coast Guard's 
inspectors or our boarding officers in order to correct the 
maritime? This really is a good order and discipline kind of an 
issue that is not unlike what the Coast Guard does for 
ourselves, and it is very important for the commanding officer 
to be able to have that authority.
    Mr. Cummings. But with regard to punishment authority, that 
would remain with you all, right? Isn't that right?
    Ms. Higgins. Absolutely. The enforcement responsibility 
would continue with the Coast Guard. Let me just say that this 
is how we work currently with the FAA and with the Coast Guard. 
We fully respect the missions of both the FAA and the Coast 
Guard in terms of their enforcement responsibilities. In fact, 
our process allows for that kind of action to be taken 
immediately if that is what is called for. That does not in any 
way get in the way of the safety investigation, which may take 
a little longer to identify the probable cause.
    We feel strongly that the way to improve safety over the 
long term is to take action as quickly as possible, so we in no 
way want to use our process or currently use our process to 
delay any kind of enforcement actions, whether it be against 
pilots or mariners, that need to be taken.
    I was, for example, the Member on scene for a cruise ship 
accident in Juneau just about a year ago, and we worked with 
the Coast Guard. We were the lead agency, but at the same time 
they took the actions necessary to engage the crew and ask the 
crew member who was on the deck at the time of the accident. He 
voluntarily surrendered his license and they are still having 
conversations with the captain. That is the kind of process 
that is currently working. It would not change under this 
authority.
    Mr. Cummings. Very well. Thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman, for 
having this hearing, and I apologize for not being here at the 
very beginning.
    I have to say the Chairman and I have worked really well 
together for the last year, but I have a little different take 
on today's hearing and NTSB's proposal, and I will try to make 
that evident during the course of my questions.
    Admiral, to you, before I came here I was a prosecuting 
attorney and we had this really, really big murder, and I was a 
little naive country lawyer, so on. It was apparently budget 
time, appropriations time and we were lucky enough to be 
assisted by some Federal law enforcement agencies. The next 
time I came back to the crime scene, FBI and ATF and DEA 
agents, who had appeared in jeans and work clothes, they all 
had slickers on that said FBI, ATF, DEA, and I thought, it is 
not raining; why do they have these slickers on? And it became 
apparent to me, when I watch television, it was so we could all 
see back at home that their tax dollars were at work and the 
FBI needed more money than the ATF because they had more 
jackets working on the murder.
    This, to me, as I read the Inspector General's report, I 
think the Coast Guard is responsible for creating a vacuum in 
this area, and I think the Inspector General's report, by 
pointing out deficiencies, has sort of left the playing field 
open, and I do fault the Coast Guard for that.
    I will say, though, Ms. Higgins, that I think NTSB's 
proposal is not benign, it is not minor, and it is a pretty 
big, aggressive attempt to fill that vacuum. I thought it was 
interesting that you used the word tiebreaker, and the Admiral 
picked up on the word tiebreaker.
    A tiebreaker, to me, means that if, at the end of the game, 
the score is tied, you flip a coin, you go into overtime. In 
your version of tiebreaker, you always win. So if there is a 
tie and there is a disagreement, the tie is broken because you 
say you are going to take the lead, right? You can never lose a 
tie. You can have a tie, we can have a disagreement, but if 
NTSB says, hey, tiebreaker time, you win, right? I am not wrong 
about that, am I?
    Ms. Higgins. You are right.
    Mr. LaTourette. That is what I thought. And to the 
Admiral's point about it appearing to the world to be a 
demotion, I look at the proposed legislation that NTSB has set 
up here, particularly Section 1132(a) subparagraph (c) and the 
participation of the Commandant in marine investigations, the 
last sentence is: ``However, the Commandant may not participate 
in establishing probable cause.'' I mean, you are cutting the 
Commandant out of the equation.
    So if I am the Commandant, and to this moment in time we 
have had a system that has worked pretty well and everybody has 
gotten along, you like the Commandant, you like the Coast 
Guard; they have got some deficiencies that the IG has 
indicated, but you are taking him out of a process that he is 
now involved in.
    Ms. Higgins. Sir, if I could explain. When we talk about 
probable cause--and I mentioned in my statement that probable 
cause is determined in a public meeting that is convened by the 
Chairman of our Board, five-member Safety Board, and we 
publicly vote on a probable cause. We do that for all our 
accident investigations.
    The Coast Guard, under this provision, and as currently 
exists, would serve as a party to the investigation, our 
investigation, and they would sit at the table, we would share 
information with them, they would share information with us. 
They may conduct an independent enforcement investigation if 
that is so required. But under our process, which is, again, 
what we use now for marine investigations, we, as the Safety 
Board, charged by Congress, determine the probable cause of the 
accidents.
    Mr. LaTourette. Then why do you need to put that sentence 
in there?
    Ms. Higgins. We tried to, in that language, just parallel 
the authority that we currently have in investigating aviation 
accidents. If you were to look at them side-by-side, we 
substituted marine for aviation. All we are trying to say is 
that this is the same system that we currently have in 
aviation, where we have the clear lead and this is the process 
we follow. I would make a distinction, though, that in aviation 
we are charged by statute to investigate every aviation 
accident. Under the statute, which we are really not changing, 
we would only investigate major marine accidents as defined by 
regulation
    Mr. LaTourette. Okay. Thank you very much for that.
    To you, Ms. Richards, under the current Coast Guard 
personnel requirements that apparently came up short in terms 
of meeting them, in your report, a marine casualty investigator 
must be either a Hull Inspector, a Machinery Inspector, or a 
Small Vessel Inspector, and have served as a Boarding Officer, 
Facility Inspector, or Harbor Safety Officer. Did the IG, as a 
part of its investigation, look at the qualifications of the 
NTSB investigators?
    Ms. Richards. No, sir
    Mr. LaTourette. Okay.
    And then to you, Ms. Higgins, can you tell me how many NTSB 
investigators meet the requirement of Hull Inspector, Machinery 
Inspector, Small Vessel Inspector, and have also served as a 
Boarding Officer, Facility Inspector, or Harbor Safety Officer?
    Ms. Higgins. I have with me the resumes of our safety 
investigators, which I would be happy to provide to the 
Committee. I don't have the information characterized or 
classified in the way you asked for, but we can certainly get 
that for you.
    Mr. LaTourette. I would ask unanimous consent that those 
documents be made part of the record.
    Mr. Cummings. So granted.
    Mr. LaTourette. And then if the Chairman would permit me 
one more question.
    Mr. Cummings. Please.
    Mr. LaTourette. Thank you so much.
    Ms. Higgins, you indicated in your testimony that the 
proposed language would give the Board clear authority to move 
forward in the case that there is a paralysis between the Board 
and the Coast Guard created by this agreement over 
interpretation of the regulations that they have jointly 
issued. I would ask you has such a paralysis ever occurred?
    Ms. Higgins. It is my understanding--and I have been with 
the Board about two and a half years--that in recent history 
there has not been such paralysis. Admiral Watson and Dr. 
Spencer from our office were colleagues when they were both 
with the Coast Guard, before Dr. Spencer came to the Safety 
Board. So as has been explained to me, this is done as much on 
personal relationships now as it is in terms of the process 
that is outlined in the regulations.
    But there have been instances in the past where it has been 
a problem, and we can get you specific examples of that, if 
that is helpful to the Committee.
    Mr. LaTourette. Well, I would want you to supplement the 
record because what I think you are telling me is that 
everything works well because the Commandant is a great guy, 
the folks at NTSB are great people, but you think that somehow 
the new Commandant might be a jerk and we may get some jerks 
over at NTSB, so we have to make some rules. We are not having 
any problems at the moment, but we have to make some rules 
taking away some authority from the Coast Guard because we 
might get people who don't get along in the future.
    Ms. Higgins. I think that we are looking for clear 
authority, the same authority we have in investigating every 
other mode of transportation when there is an accident. We have 
had problems in the past. Currently, things are working well. 
They could work better. We have had some specific issues, for 
example, in the COSCO Busan, that we worked out, but it is not 
without its problems. We are looking for the same authority to 
elect to lead marine investigations that we have in aviation, 
rail, pipeline, and hazardous materials.
    Mr. LaTourette. Okay. Then if the Chairman would just 
indulge me, because you brought up the COSCO Busan.
    Was the confusion regarding the COSCO Busan illustrative of 
a faulty process or was it the failure of certain individuals 
to follow the appropriate steps outlined in the current 
process?
    Ms. Higgins. My understanding of what happened in the COSCO 
Busan is that the information that was provided to us 
initially, in terms of the amount of the spill, was inaccurate. 
I think everybody knows that that was part of the problem. We 
learned through press accounts the next day that the spill was 
much greater than what had been originally told to us. We then 
decided perhaps we should take a closer look at this, and the 
Coast Guard then also contacted us.
    But we didn't get the information about the actual 
dimensions of the casualty directly from the Coast Guard, we 
got them from press accounts. So we didn't get on scene until 
three days after this accident happened. As a result of that, 
some of the important information, like the voyage data 
recorder, was not secured, and mistakes happen and we have made 
it better, but we think if there had been a better process in 
the beginning, in terms of more accurate information, we could 
have made a decision earlier that this was a major 
investigation and we would have launched sooner.
    Mr. LaTourette. Thank you so much.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Cummings. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I really don't need an answer on this first comment, it is 
just a possible answer to Ms Higgins' questions about you don't 
understand why NTSB doesn't have this lead authority when you 
have it in other areas. I don't have an answer to that, but I 
personally would like to look into that. It could be because 
the Coast Guard has had this investigative function since 1832 
or so, and it is possible that it has been relatively effective 
over that time as it has changed to meet the needs of maritime 
transportation; whereas, in other areas, we didn't have an 
effective way to investigate accidents. So that is certainly 
possible.
    I also want to throw it out to NTSB. In my district we had 
the pipeline explosion in 1999 of the Bellingham pipeline. NTSB 
was johnny-on-the-spot, did a great job with investigation, 
took the lead. So it is not to say that NTSB can't take the 
lead on these things; they were great. But that itself, though, 
was not without its conflicts between NTSB and other agencies 
in terms of who gets to penalize who and for how much. So it is 
not a totally perfect process either when you all get the lead.
    On page 4 of your testimony, in the last paragraph you say 
``There may be some incidents where the Coast Guard disagrees 
with the Safety Board's position that the Board's investigation 
should take precedence over the Coast Guard's investigation, 
and a change to the law would enable this dispute to be 
resolved unambiguously and quickly.'' This gets into the 
tiebreaker issue. I am just curious why you decided that you 
ought to be the tiebreaker and you didn't come to recommend to 
us that the Coast Guard ought to be the tiebreaker. It would 
seem to us that it would be just as unambiguous and resolved as 
quickly if we gave the Coast Guard the tiebreaker.
    Ms. Higgins. Well, I am representing the NTSB. I think it 
is important to step back and remember why Congress created the 
NTSB 40 years ago. The FAA has investigative authority, the 
Federal Railroad Administration has investigative authority. 
Congress wanted an independent agency--who was not the 
regulator, was not the law enforcement agency, didn't do the 
certification, didn't do the inspections--to have the 
responsibility to investigate accidents. We don't have a 
history, necessarily, with any of the players in a particular 
accident. We don't inspect the ships, we don't license the 
ships. I think that is why it would make sense in----
    Mr. Larsen. If I may, I think it would be very important 
for us to go back and look at the same question, which is then 
why did not Congress include the Coast Guard in that. And that 
is all I am saying, is perhaps I need to go back and look at 
that history to understand that better.
    Ms. Higgins. Sure.
    Mr. Larsen. Because if it happened on purpose that NTSB got 
the lead for these other investigative efforts, then it must 
have happened on purpose that the NTSB didn't get the lead for 
maritime. It is an interesting question for me to try to get an 
answer to, and I may have to do that independently myself.
    With regards to the criteria that NTSB would use to make a 
decision, you used the term high profile. I hope there are 
other criteria other than high profile cases that you would use 
to decide that NTSB was going to be the lead or have primacy. 
You discussed those somewhat. Can you be specific about the 
criteria NTSB uses and would use to determine lead?
    Ms. Higgins. Sure. I can submit for the record all the 
criteria that we use. Significant loss of life is one criteria. 
Another criteria would be the dollar amount in terms of the 
damage done to the vessel itself. The other criteria we look at 
is whether the accident raises important safety implications 
that would have significance for the marine industry overall, 
or whether this is an accident that we have seen before.
    Mr. Larsen. What is your process and time line, say, in an 
airplane investigation to make that determination?
    Ms. Higgins. Well, we have to investigate every aviation 
accident, by statute. So even for civil aviation accidents, we 
have to determine the probable cause. We may work with the FAA 
and they provide us the information. So it is a little bit 
different. In marine we have to be more selective, so that is 
why the criteria is developed and put in regulation.
    Mr. Larsen. Okay.
    Ms. Higgins. The statute talks about major marine 
casualties, and then all of that is defined in regulation.
    Mr. Larsen. Okay, that is fine.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    It is good to have you all with us.
    Ms. Richards, I am referring to my notes. I want to revisit 
the 22 investigative officers who were interviewed. How many of 
that group did you say were found to be unqualified?
    Ms. Richards. Fifteen of the 22 of the marine casualty 
investigators in our sample were not fully qualified.
    Mr. Coble. So that would be seven were qualified, I guess, 
then.
    Ms. Richards. Yes.
    Mr. Coble. Admiral, do you want to refute or embrace those 
findings?
    Admiral Watson. Sir, I think one of the main factors that 
led to the conclusions--first of all, I am not disputing the 
IG's findings.
    Mr. Coble. And I am not initiating a fight between you 
either.
    Admiral Watson. That is right, sir. In fact, I think it is 
important to reiterate that we agreed with almost all of the 
recommendations from the IG and we are actively working on 
implementing changes as a result of those recommendations. But 
back to the data, I just want to clarify that the issue there 
was the prerequisites of an officer or warrant officer, perhaps 
even a civilian, that we have in our policy to begin the 
process of becoming a marine casualty investigator.
    And as Ms. Richards said, we had a standard that had a 
requirement that you have qualifications in other areas of 
marine inspection, the Hull Inspector, Machinery Inspector, 
Small Passenger Vessel Inspector; or over in the port operation 
side, Harbor Officer, Facility Officer, and so on. That was the 
main cause for the IG's determination on these unqualified 
people. Some of them had actually achieved their qualifications 
through going to school in Yorktown, at our marine casualty 
investigation school, and then performing investigations as an 
apprentice, and then sitting before the Board, but they 
bypassed the prerequisites. So it was determined that they were 
unqualified.
    Now, those people, some of them may have been lawyers, they 
may have been naval architects, like myself, that hadn't been 
in those particular assignments prior to being an investigating 
officer, but they were given exceptions to becoming marine 
casualty investigators by virtue of other qualifications. So 
our policy, our guidance doesn't cover every different 
situation, and we have that allowance for the assignment 
officers and the commanding officers to make these changes.
    Mr. Coble. I thank you for that. Admiral, let me put a two 
part question to you. We have heard that the Coast Guard needs 
additional personnel--I have heard potentially up to maybe 
10,000 more--to carry out its responsibilities. Two part 
question: What areas would the Coast Guard focus upon with the 
additional personnel, A? And, B, what is the Coast Guard doing 
to strengthen the casualty investigation program?
    Admiral Watson. Sir, the areas that we would focus on are 
the areas where the maritime community--whether it is boating, 
cruise lines activities--all of the different growth areas of 
the maritime communities are growing. We need to right-size the 
Coast Guard, since we have missions that affect all of these 
waterways users. We need to match that with the size of the 
activities that we are responsible for. So that will be one 
area.
    The other thing is that we have been charged, through the 
Safe Port Act and some other recent legislation, to do things 
that we haven't done before. We have joint command centers that 
Congress has asked us to manage in all of the port areas. We 
need staffing in those command centers. We also are 
anticipating to do inspections of towing vessels, approximately 
7,000 new vessels that are currently uninspected. Things like 
that. We are looking at ballast water inspections, air 
emissions. We have got a lot of activities associated with 
environmental protection. Those are the types of things that we 
are going to need to grow to fill.
    Now, with regard to marine casualty investigators, we have 
a program to enhance the whole marine safety program, of which 
the investigations program is a critical part of that. Our 
fiscal year 2009 budget requests 276 total new billets for the 
entire program, of which 44 would be for the investigations 
program, 20 of those would be for civilian marine casualty 
investigators; and then there are some other billets in that 
batch that are to support the training system.
    Mr. Coble. One final question, Mr. Chairman.
    Is the 10,000 number an accurate one, additional forces, 
Admiral?
    Admiral Watson. Sir, that was a number that Admiral Allen 
suggested. I don't have the details of all of the accumulation 
to reach that figure.
    Mr. Coble. Thank you. My time has expired.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Ms. Richardson.
    Ms. Richardson. Mr. Chairman, I noticed our Chairman had 
entered. Did you want me to defer to him? No? Okay. Thank you, 
Mr. Chairman.
    You know, as I listen to this discussion, this is the 
reason why we live in America and we have a democracy. I am 
going to be really frank with you. I represent an area with 
ports. There is no need for egos in this room. It really 
doesn't matter to me who does it. It is important that it is 
done and it is done right.
    I respect, Mr. Admiral, the need for not wanting to appear 
to be demoted or whatever, but the bottom line is this isn't 
about who is demoted or who is promoted. This is about ensuring 
we don't have accidents, so people are not killed and our 
environment is not caused such harm that it costs all of us for 
generations.
    When I look at what happened in San Francisco, it doesn't 
matter to me. I have relatives who served, and I understand the 
need to want to be respected and to be honored, and we give you 
that. But I don't believe we should jeopardize our personal 
safety upon that.
    Now, the gentleman from the other side asked you about some 
additional responsibilities and I didn't hear you reference--I 
think the Coast Guard is now going to be working with also 
inspecting and being involved with LNG facilities, as well, 
vessels, and it is like when I look at all the additional 
responsibilities, I don't view it as a negative. I think what 
we would be saying to you--and I remember other hearings that 
we have had of all the additional responsibilities now that is 
being laid on the Coast Guard. I would see it as a welcoming 
assistance.
    Now, I would challenge Ms. Richards and Ms. Higgins to 
figure out how we can, as adults, coach this or present it that 
it is not viewed as a negative, but I would be extremely 
opposed to us maintaining jurisdiction just for the sake of 
because we always had it, because the American people deserve 
better than that. And you have done a commendable job and all 
the folks that work with you have done an excellent job, but we 
should not jeopardize our personal safety for the sake that you 
have handled it for the last 100 years.
    With that, let me say, Ms. Richards, in your testimony you 
stated that the Coast Guard has not established a clear and 
desirable career path for its instigators. I think this means 
investigators, actually. That was typed here. You also state 
that the Coast Guard has not focused on addressing 
recommendations related to the investigators qualifications. 
Can you please go further in detail about these 
recommendations?
    Ms. Richards. Yes. During our audit, we spoke to a number 
of investigators, both currently in investigator billets and 
previous investigator billets, as well as personnel in 
positions of authority. It was suggested to us very strongly 
that the reason that it is difficult to fill the billets as a 
marine casualty investigator is that it is not seen as a 
desirable career move, that it doesn't lead to additional 
promotions. Coast Guard personnel expressed some reluctance to 
go into the marine safety line and specifically the marine 
casualty investigators because, of course, as normal 
individuals, they are looking for advancement and promotion, 
and they don't feel that this is the quickest or easiest path 
to get there, or even a sure path to get there.
    Ms. Richardson. Okay. Now, the gentleman on the other side 
there mentioned that this really may not be that big of a 
problem, but according to your testimony, Rear Admiral Watson, 
the IG found that five out of the six individuals assigned to 
the marine casualty investigators in the Sector San Francisco 
were unqualified. The IG report also found in its sample that 
the casualty investigators, 68 percent of those assigned to 
these positions are not qualified.
    And then to further add burden to this, in a report that 
was done in August of 2007, the standards were removed from 
requiring pre-qualifications that the requirement that an 
individual have experience as a Hull or Machinery Inspector and 
a Small Vessel Inspector, those were removed, and the IG found 
that this change in fact lowered the standard, which we see an 
impact today in accidents that have happened.
    So that would bring me to the question, Rear Admiral. It 
says that you guys have developed a plan. When is it going to 
be implemented and why did you wait so long?
    Admiral Watson. We had developed a plan prior to the IG's 
report. I touched on a few of the parts just a few minutes ago 
with the additional capacity that is needed for our program. 
Last year, 2007, we implemented a completely new training 
regime, as well as a qualifications process.
    Once a graduate of our training program in Yorktown reaches 
the field and becomes an apprentice and works under a mentor, 
they are using something called a personal qualification 
system, which has been revamped so that they have experienced 
every element of the program before they go before a board of 
fully qualified senior investigators to be tested in their 
knowledge. That whole system has been in place for years, but 
the specifics of it was revamped in 2007.
    Ms. Richardson. But again, Admiral, I stated to you that 
the IG said that those revised standards, the IG found that 
these changes, in their words, was, in essence, it lowered the 
standard.
    Admiral Watson. Yes, that was in reference to the 
prerequisites for assignment to a marine casualty investigator 
billet in the Coast Guard. The old standards there were based 
on a 1980s version of the marine industry. Today we have a 
whole new set of qualifications for inspectors and for other 
officers in the Coast Guard sectors that we have today such 
that the prerequisites can go well beyond Hull Inspector and 
Machinery Inspector and Small Passenger Vessel Inspector.
    We have a large number of our people that are busy every 
day doing what we call port state control, which are exams of 
foreign vessels that by far the larger number of vessels where 
there is Coast Guard activities is foreign vessels today, 
compared to U.S. flag domestic vessel. So we shifted to those 
being the qualifications.
    By the way, we removed or are in the process of removing a 
prerequisite that existed back then that would have allowed a 
person who only experienced limited activity as a Coast Guard 
boarding officer for certain navigational checks on a vessel or 
harbor patrol officers, they are not going to be allowed to 
begin the process because they really don't have the adequate 
background. So all we have really done is some shifting; we 
have not gone backwards.
    Ms. Richardson. Mr. Chairman, if I could just get 30 
seconds to wrap up.
    Ms. Richards, would you agree, then, that the standard has 
in fact been met?
    Ms. Richards. No, I would not. It is our opinion that, in 
particular, the standard to be a Hull or Machinery Inspector, 
as well as a Small Vessel Inspector, is very important to the 
prerequisites of becoming a marine casualty investigator. The 
way it was explained to me was that those qualifications 
allowed the investigators, when they were doing an 
investigation and talking to the operators of the vessel in 
question, to basically tell if they were hearing truth or they 
were hearing a fabricated story, or at least have some basic 
knowledge of how a vessel would be operated and the components 
of a vessel would be operated in order to make that initial 
determination which drives their investigation.
    One of the individuals that we spoke to during the course 
of our audit was the Captain of the Port of New York. He 
suggested to us that six to nine years experience as an 
inspector in those areas would be a sufficient criteria to 
become an investigator. So we believe those are very important 
still.
    Ms. Richardson. So, Mr. Chairman, I would just say that, to 
me, what I just heard here the last minute is of great concern 
to me, that we have our Admiral, who feels that the standards 
are appropriate, and yet we have the Inspector General who says 
clearly they are not. So I look forward to us exploring this 
further.
    Again, Admiral, we have nothing but respect for you. In 
fact, our Chairman has talked continually about the additional 
responsibilities that has been put on you, and we support you. 
So if there is a way that we can help you to do the job more 
effectively, we want to do that; and it shouldn't be viewed as 
a demotion, it should be viewed as thanking you for what you 
have done, and we know the tremendous challenges you have 
before you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    As we now go to the Chairman of the Full Committee, let me 
just ask you this. Rear Admiral Watson, if you just heard what 
Ms. Richards said, that is a pretty tough statement she just 
made about what they found. We have a lot of confidence in Ms. 
Richards. And Rich Johnson, who is sitting behind her, I want 
to thank you too, Mr. Johnson, for all your hard work. We 
really do thank you and the whole team there.
    But I guess there are just two things I want to get to 
before the Chairman asks his questions. Of the 110 people you 
cite as being fully qualified to meet all the prerequisites, as 
well as having completed all required training, is that 
accurate? You said 110 were fully qualified. Is that true? And 
while you are doing that, you mentioned certain people like 
yourself, I think you said, where exceptions are granted. Is 
that written somewhere, that if I am a plumber, I can get an 
exception; if I am a lawyer I can get an exception? Do you 
remember mentioning that?
    I guess what I am trying to get to is that if I want 
somebody to operate on my heart, I don't want people that got 
exceptions and they have never had to go through the heart 
classes--you follow what I am saying?--in medical school. I am 
just trying to make sure that when we have people who are 
doing--because these casualty investigations have the potential 
for so much impact, I want to make sure that there is some kind 
of a standard. So where is that standard of who gets an 
exception?
    And then we will hear from Mr. Oberstar.
    Admiral Watson. Yes, sir. The policy, the guidance is 
designed for the majority of the people that you would--the 
pool of people that you would draw from if you were the Coast 
Guard assignment officers and you were needing to put 
apprenticed marine casualty investigators out to the sectors 
and begin the process. We are talking about who do you use for 
the pool.
    So we wrote the guidance for the majority. And we have got 
to remember that we are not saying there are any exceptions to 
the sequence of going to the school, doing the PQS, going 
through the Board to get examined, and then having the 
commanding officer actually sign your designation as a marine 
casualty. No exceptions there.
    What we are talking about is, is it acceptable to look 
beyond that assumed pool and choose somebody whose background 
has been in the technical side of the program. This gets into 
some of the same issues I think that you probably had to think 
about in the recent bill; what should those qualifications be 
for different positions. We could have hired somebody from the 
American Bureau of Shipping, for example, as a civilian in the 
Coast Guard. That person may have years and years of 
experience, but he has never gotten the Coast Guard 
qualification as a marine inspector of hulls or machinery.
    Mr. Cummings. Well, of that 110, how many of them were 
given exceptions, the 110 that you cited that were fully 
qualified?
    Admiral Watson. I don't know, sir. But those exceptions 
were, in effect, not exceptions because our system, our policy 
accommodates those reasonable alternatives.
    Mr. Cummings. Admiral, I have to stop here, but I have got 
to tell you what you just said concerns me more than anything 
else you have said here, because what that means is that 
anybody can come up with a pie-in-the-sky this is an exception 
and say, okay, this person has now met the requirements. That 
is the impression I get from what you said. Maybe I am wrong, 
but Mr. Oberstar can pick that up. I see he is anxious to get 
started.
    Mr. Oberstar. Oh, no, you are doing well. I am in agreement 
with you. I am very concerned about the direction this is 
going.
    I think some of the problems that we are covering here, and 
have in the past work of the Committee leading to this hearing, 
are going to be addressed if we ever get the Coast Guard 
authorization bill enacted, making substantial improvements in 
the marine safety function of the Coast Guard and establishing 
full course in marine safety work and qualifications of Coast 
Guard personnel.
    What disturbed me so much was a comment that, well, our 
people aren't up to ABS standards. Oh, my goodness. The ABS 
should be up to Coast Guard standards, it shouldn't be the 
other way around. I was at the Coast Guard Academy recently, a 
month or so ago, and talked to the Commandant of the Academy 
and Commandant of the Cadets, talked with several of the 
cadets.
    They are pretty excited about the idea of having a full-
time safety course, and the other provisions that we have 
crafted into that legislation will ameliorate the existing 
situation, but two-thirds of Coast Guard marine casualty 
investigators don't meet Coast Guard qualifications, let alone 
the NTSB qualifications; and five of the six Coast Guard 
personnel who investigated the allision in San Francisco were 
unqualified.
    Now, if you look at the NTSB--and I won't name them, need 
to do that, but their qualifications--Master of U.S. Steam or 
Motor Vessels of 100 gross tons, Master of Steam or Motor 
Vessels of not more than 1600 registered gross tons, graduates 
of Massachusetts Maritime Academy; Chief Engineer Unlimited 
Horsepower for Steam, Motor and Gas Turbine, Bachelor of 
Science Marine Engineering, Marine Maritime Academy; Master of 
U.S. Steam or Motor Vessels of any gross ton, Master of 
Science, World Maritime University, Bachelor of Science, 
California Maritime Academy.
    I am not going to go through the others, but they are of 
that qualification. That is the standard the Coast Guard should 
have internally. That is what we are expecting of the Coast 
Guard, to be the gold standard. Those are NTSB investigators.
    Thirty percent of casualty reports surveyed had factual 
errors. And until we pressed this issue in Committee, Coast 
Guard had not established a career path for casualty 
investigators.
    Now, when I first immersed myself in this issue of the 
division of responsibilities between the NTSB and the Coast 
Guard was in the aftermath of a vessel inspected by the Coast 
Guard that just a few days later sank in Arkansas. A duck gone 
through the Coast Guard. And there were fatalities. The Coast 
Guard insisted on investigating itself. Now, Admiral, don't you 
think that was a conflict of interest?
    Admiral Watson. Sir, I think a organization like the Coast 
Guard needs to investigate itself. We need to have a process to 
do a critical examination of ourselves. We do that----
    Mr. Oberstar. You should, but should you be the lead 
investigator in a situation where just a few days before the 
Coast Guard said this vessel is fine to operate and a few days 
later it sinks? Should you be the lead investigator of 
yourself?
    Admiral Watson. Sir, we have a long tradition of doing 
that. We investigate when an accident occurs involving a Coast 
Guard cutter, involving an aviator, and we certainly need to 
investigate ourselves when the incident involves a Coast Guard 
marine inspection.
    Mr. Oberstar. Well, I submit that the Coast Guard is a 
human institution, and you are fallible when you are 
investigating yourself; and, at the very least, the MOU that 
resulted from that incident that was preceded several years 
earlier by a previous MOU between the Coast Guard and the NTSB, 
I think that should be refined. There are two differing 
responsibilities. Can you tell me what the differences are 
between the role of the NTSB in an investigation and the role 
of the Coast Guard in conducting an investigation?
    Admiral Watson. Yes, sir. The role of the NTSB is to 
determine the cause, and the role of the Coast Guard is to 
determine the cause for the purpose of the management of the 
marine safety program, which runs all the way from the 
inspections, standards for search and rescue, waterways 
management, all the missions that we have, as well as to ensure 
good order and discipline in the U.S. maritime.
    Mr. Oberstar. Okay, but you shortcut the NTSB. Not only 
determine the cause, but make safety recommendations. In the 
investigation of aviation accidents, the NTSB engages the FAA, 
the aircraft manufacturer, the airline, a range of outside 
interests. They bring metallurgists in to the investigation, 
whatever specialty they need, but the NTSB is in charge of the 
overall investigation and, in the end, they make the 
recommendations independent.
    If Boeing were the only one to have investigated the crash 
of a 737 at Aliquippa, Pennsylvania following an uncommanded 
rudder movement, Boeing would have cleared itself of any 
responsibility, said this just doesn't happen; we have 93 
million hours of operation of 737s and we have never had an 
uncommanded rudder movement. Oh, really? There were at least a 
dozen. There were two unexplained crashes.
    Now, the manufacturer should not be in charge of 
investigating its own aircraft or failure of its own. Yes, they 
should be engaged, they should be part, but they should not be 
the one to make the final determination. There are certain 
incidents in which the NTSB ought to have the lead. And where 
there is clearly a conflict of interest where the Coast Guard 
has, in the incident I cited a moment ago, I think that surely 
the Coast Guard should be engaged, as provided for in the MOU, 
but I think the NTSB in those situations ought to be the lead, 
because they have the independence and the objectivity.
    Admiral Watson. Sir, I agree with you. We have an MOU which 
lays out those conditions in which it is expected that the 
Commandant will shift the lead to the NTSB. It has been working 
very well and it has been working through a number of 
Commandants now. The responsibility of the Coast Guard to have 
the overall charge for the marine industry needs to stay with 
the Coast Guard. I think that is the larger question: Does 
Congress, which exempted maritime from the NTSB's authorities 
when NTSB was created, and then subsequently reinforced that 
original decision, is it a good idea now to change the primacy 
for the maritime?
    Mr. Oberstar. I think that time has arrived and we have to 
raise that question and review the issue. That separation of 
authority was done in the 1970s by the Merchant Marine & 
Fisheries Committee which had jurisdiction over Coast Guard at 
the time, and it was done without a great deal of thought.
    But let me ask Ms. Higgins and Ms. Richards whether you 
think the MOU is in fact working satisfactorily. Do you work 
out the question of primacy in a satisfactory manner?
    Ms. Higgins. Mr. Chairman, based on my experience and in 
what I have been told by our investigators, it has worked 
pretty well. I think our concern is--and we talked about this a 
little earlier--if we can't reach agreement--and I don't want 
to say that we haven't been able to reach agreement, but in 
that instance we think we ought to be able to look to the 
statute to be able to assert our jurisdiction to take the lead 
for all the reasons that you just suggested, because we are an 
independent agency and we have a responsibility to look at the 
regulatory agencies as we do in aviation and the other modes to 
reach probable cause and safety recommendations regardless of 
who that might affect.
    Mr. Oberstar. Ms. Richards?
    Ms. Richards. Sir, we did not look at the interaction 
between the Coast Guard and the NTSB on determining who would 
take the lead on investigations, so I don't have any 
information to offer at this time.
    Mr. Oberstar. Well, Homeland Security is rather new to this 
as a department and new to this subject matter.
    Ms. Higgins, let me come back. The NTSB has a very 
different relationship with other modes of transportation. It 
has a primacy role.
    Ms. Higgins. We do, with every other mode. It is very 
clear.
    Mr. Oberstar. What is different about maritime? Why should 
that be different?
    Ms. Higgins. We believe it shouldn't be different. We 
believe historically it has been different. It has been refined 
over time through previous reauthorizations where the MOU was 
first called for and then later modified. Again, I don't want 
to suggest here that we haven't all tried to make it work, but 
we do think that, from the standpoint of the Safety Board, we 
ought to have the authority to exert primacy and take the lead 
without any question about that in investigations where we 
can't reach agreement.
    As we talked about earlier, the regulations and the process 
that we currently follow would be what we would look to for 
guidance, but if for some reason we can't reach agreement, then 
we think we ought to be able to assert jurisdiction, because we 
think we have a track record that shows that our investigations 
were very selective. We only look at those we think will have 
national significance in terms of the recommendations we make 
and we have demonstrated the benefit of having an independent 
investigative body take the lead in certain kinds of 
investigations.
    Mr. Oberstar. Well, the most recent serious accident, that 
of the COSCO allision, is a good example where the Coast Guard 
rather early on dismissed the issue as of not very great 
significance and did not dispatch personnel to the scene for a 
substantial investigation and only later rose to the incident 
when 58,000 gallons of pollutant were discharged.
    It reminds me somewhat, in a different vein, of TWA 800. 
The FBI arrived on the scene immediately, they were right 
there--they had offices all over the Country--and took charge 
of the scene as a crime scene. That substantially inhibited the 
ability of the NTSB to conduct its complete investigation as an 
accident, as a failure of a system--gaining control of 
material, gaining control of the engines, for example, to 
inspect those engines and determine whether engine failure 
occurred; to rule out or rule in a missile strike, as was 
hypothesized at the outset. It is a very, very important 
distinction to be made between the role of the FBI and the 
NTSB, between the role of the Coast Guard and the NTSB.
    I am not suggesting that the Coast Guard step aside, nor is 
the NTSB that the Coast Guard step aside and stay out of the 
investigation; it should be a partner in it. But there are some 
situations where the NTSB should take the lead and where its 
current role under the MOU should be strengthened.
    Ms. Higgins. Mr. Chairman, we would agree with that. As you 
probably know, I was very involved in a different capacity in 
the standoff, if you will, between the NTSB and the FBI on the 
TWA 800 investigation, and in the end the two agencies worked 
together until it could be determined that, in fact, it was an 
accident rather than a criminal act, but it was very hard to 
make that work. As a result of that, we have changed our 
procedures and now it works much better.
    Again, I think we said at the outset we have enormous 
respect for the Coast Guard and the challenges that they face 
in terms of all their responsibilities. They would be, as they 
are now, a party to any investigation where we would take 
primacy. We need their resources; we need their capability to 
help manage the site on scene and to do all the good things 
that they do in terms of search and rescue and everything else.
    But in the COSCO Busan, for example, the voyage data 
recorder was not protected immediately, until our people got 
there. There wasn't recognition that there even was one.
    So these are just some of the things that are important in 
major investigations that we think we have the expertise and 
the experience to handle, taking nothing away from the Coast 
Guard and all the good work they do, but there are some special 
circumstances and special accidents where we think it would be 
important for us to be able to clearly take the lead and then 
have our protocol and our process followed in terms of leading 
the investigation.
    Mr. Oberstar. The Coast Guard would argue that they should 
have, among other reasons, because they lead the U.S. 
delegation to the IMO. The FAA leads the U.S. delegation to 
IKO, the international civil aviation organization. But the 
NTSB is the lead entity in an aviation accident.
    Admiral, do you see any further adjustments that could be 
made to the existing MOU without undermining the Coast Guard's 
proud and historic role?
    Admiral Watson. Absolutely, sir. I think we are very 
anxious to engage with NTSB and make improvements to the MOU. 
We have learned a lot since the MOU was written originally, and 
we would like to incorporate those changes for the betterment 
of NTSB's investigations and Coast Guard investigations. We are 
very supportive of the MOU process; it is the way to go. I 
think there are things that we can look back on to where it 
could have been improved.
    My personal experience was with a boiler explosion on a 
vessel called the S.S. Norway down in Miami, Florida. That 
investigation, quite frankly, was, per the MOU, given to NTSB 
to lead. My concern with it is that it took years before we had 
any results from that. In the meantime, there was a DOJ 
investigation, and just this year, about five years later, both 
agencies, DOJ and the NTSB, had outcomes.
    But the Coast Guard can do both of those roles. As you say, 
the difference between the Coast Guard and the NTSB is that we 
do have an obligation to do the law enforcement side, the 
disciplinary side. So when a Coast Guard investigation is 
ongoing and the Coast Guard has the lead, we can do both of 
these things at the same time; we can accommodate both the NTSB 
and the DOJ, and we don't have a Flight 800 type of situation. 
That is what we have been doing for over 100 years, so I think 
that is part of the reason why Congress has left our system the 
way it is.
    In addition, I think it is important to note that, for 
aviation, NTSB does all aviation casualty investigations. Were 
they to do that for maritime, they would add the 5,000 
investigations that we are currently doing to their area of 
responsibility, and if you think that there needs to be 
separation, how is that justified just for a very small handful 
out of the total number? I just think that there is a lot of 
unintended consequences that could come from this.
    Mr. Oberstar. For a very long period of time, the Marine 
Board was headed by Justice Department official. That was 
changed in 1948. And I think the Coast Guard's personnel 
qualifications are going to improve with enactment of our 
authorization bill and establishment of these programs.
    Meanwhile, I think there are at least refinements to the 
MOU that should be made, and I would like to recommend and 
request specifically that the Coast Guard submit their thoughts 
to the Chairman and Ranking Member, and that the NTSB submit 
their language comparably for changes, and then let us evaluate 
those and see if we can play the role of honest broker and 
achieve what I see as a need to upgrade the quality of safety 
investigations.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. I am going to pass.
    Mr. Cummings. Very well.
    Let me just go back. Rear Admiral Watson, you said that you 
all had looked at the recommendations from the Inspector 
General's Office and that you were in agreement, I think. Don't 
let me put words in your mouth. Tell me what you said, because 
I am going to hold you to it.
    Admiral Watson. Sir, I think there were about seven 
recommendations.
    Mr. Cummings. There were eight.
    Admiral Watson. Eight recommendations, yes, sir. We 
concurred with all except for one that we agreed with some of 
it but disagreed with----
    Mr. Cummings. And which one was that?
    Admiral Watson. That was the one that was about the hull 
and machinery inspectors and small passenger vessel inspection 
as a prerequisite, versus hull, machinery or small passenger 
vessel inspectors as an entering prerequisite condition for 
assigning a person to a marine casualty investigation billet. 
And if I could just touch on that, sir.
    Mr. Cummings. That is recommendation number 4. It says 
revise the August 2007 marine casualty investigation 
qualification standard to include the pre-qualification of all 
or machinery and small vessel inspectors. Is that the one?
    Admiral Watson. Yes, sir. And it is the word ``and'' that 
is the issue.
    Mr. Cummings. And small vessel inspectors.
    Admiral Watson. Our standard is or. If you are a small 
passenger vessel inspector--actually, that goes beyond that. A 
variety of other inspection qualifications. You don't have to 
have them all before you can begin the process of becoming a 
marine casualty investigator.
    Mr. Cummings. Now, Sam tells me that you all made that 
change. It used to be ``and.''
    Admiral Watson. Yes, sir.
    Mr. Cummings. So now it is still ``and.'' So what happened?
    Admiral Watson. We made it into an ``or.''
    Mr. Cummings. Now you want to go back?
    Admiral Watson. Yes, sir. It was almost impossible for us 
to have enough of a pool of people with prerequisites to feed 
our marine casualty inspection program, which requires 136 
Coast Guard officers to fill the billets, if we had that 
``and'' in there, and the reason is because we really don't 
need that large of a number of hull and machinery inspectors 
for U.S. flag vessels like we did in the 1980s.
    There aren't as many of those type of vessels. Our fleet of 
10,200 inspected vessels is largely small passenger vessels. 
The industry has changed significantly, and the way you get 
experience on the large vessels these days is doing port state 
control, which is a whole other set of qualifications different 
from hull and machinery.
    Mr. Cummings. Do you have an opinion on that, Ms. Richards, 
since they are your recommendations?
    Ms. Richards. Yes, sir. In the August 2007 publication, the 
Coast Guard actually did not include the prerequisite to a hull 
or machinery or small vessel inspector. They believe that it is 
covered because it is a prerequisite for attending the basic 
investigator training course. And that is one of our problems 
with the Coast Guard's position, because we know from our work 
that it is possible to attend the basic training without 
meeting the prerequisites for the basic training. So we believe 
that the qualifications need to be specifically set in the 
Coast Guard's guidance.
    We also believe that the Coast Guard is taking a step 
backwards by eliminating the ``and'' and lowering the 
standards, and we don't understand why the Coast Guard would 
choose to do so other than perhaps it is difficult to fill its 
billets because they don't have a number of personnel trained 
to meet all those inspector qualifications. Our work showed, 
and the people that we talked to said that it was very 
important to have both the hull or machinery and the small 
vessel inspector qualifications.
    Mr. Cummings. All right, I get the picture. Let me go on to 
something else very quickly. Going back to these qualifications 
of the 110 investigators you cited as being fully qualified, 
Rear Admiral, I am just wondering, do you think the IG team 
would find all of them to be qualified? I guess what I am 
trying to understand is in a sample of the IG, they found 68 
percent of the investigators were unqualified. You say that 110 
of 136 assigned individuals are qualified. So either the IG had 
a non-representative sample or we are not talking about the 
same thing, and I am trying to figure out where the problem is 
here.
    Admiral Watson. Yes, sir. Well, both of these sets of 
numbers are a snapshot in time. That is one thing. The 68 
percent is from a sample of five units some time last summer, I 
believe. Now, you have got to remember that in the spring there 
is typically going to be more people that have reached their 
qualifications than in the summer, when people just get 
assigned to a unit. So there is a cycle to this that is a 
natural cycle.
    The 110, I would have to give all of the data to the IG for 
them to be able to tell me whether they agree with us, but we 
look at the data. It is like Chairman Oberstar looking at the 
resumes. They are what they are. We make our own rules for this 
and we determine that they are fully qualified.
    Mr. Cummings. I understand. I guess, based on what you just 
said about seasonal and cycles, would it be safe to say that 
there are times when a small percentage are qualified? In other 
words, you are talking about the snapshots and the fact that 
certain things happen at certain times of the year, what have 
you. Would that be an accurate assessment, do you think?
    Admiral Watson. Yes, sir. There is always going to be some 
apprentices in the system, people that are assigned to a billet 
that have yet to be qualified, they are working on their 
qualifications.
    Mr. Cummings. And what we need is consistency, because we 
never know when these things are going to happen and when we 
are going to need these personnel to use certain skills. I am 
just trying to figure out how do you plan to--I am sure you 
would agree with me that we want more consistency. You 
understand what I am saying, right?
    Admiral Watson. Yes, sir. We have 448 fully qualified 
marine casualty investigators throughout the Coast Guard. Most 
of them are not in marine casualty inspection investigator 
billets, but we are a military organization. If we need 
somebody that has the experience and knowledge to deal with a 
marine casualty on an LNG ship, some special ship, we will get 
the right person to the right place at the right time.
    Mr. Cummings. Well, did that happen with the San Francisco 
incident?
    Admiral Watson. No, sir.
    Mr. Cummings. Well, see, that is the problem.
    Admiral Watson. Well, I think there was----
    Mr. Cummings. Listen to what you just said to me.
    Admiral Watson. Yes, sir.
    Mr. Cummings. You just said if we have a problem, we will 
find the people and we will get them here. In this instance it 
didn't happen, and that is the problem. I understand the Coast 
Guard is stretching, and I am telling you, we fight on both 
sides to try to get you the personnel and the expertise you 
need. But one thing I do know is that if I haven't learned 
anything in my 57 years on earth, I have learned this: in order 
to deal with a problem, you have got to first acknowledge you 
have got it.
    I remember when my daughter--I have to tell you this little 
story, and then I will turn it over to Mr. Taylor. When my 26-
year-old was 3, she used to come up to me, Admiral, and I can 
remember this as if it was happening right now. She would come 
up to me and she would put her hand over my eyes and she would 
say, daddy, let's play hide and go seek. And she is standing 
right in front of me and then she would say you can't find me. 
Well, that is all right for a three-year-old, but we have to 
face up to whatever the problems are that we have so we can try 
to address them, because I think that we all want to work 
together to make this work.
    I think Mr. Taylor wanted to ask a question.
    Mr. Taylor. Admiral, thank you very much for being here.
    Mr. Chairman, thank you for recognizing me.
    I have to admit that I have mixed feelings about this whole 
hearing because I realize that the Coast Guard is increasingly 
asked to do more things, and then we scratch our heads in 
amazement when you are not experts at everything we ask you to 
do, and that is just not realistic. But there are a couple of 
things that come to mind that make me wonder whether or not 
something does need to improve.
    Number one, the case of the Seabold Trader, which is a 
vessel in the American flag that had major modifications done 
to it over in China. Folks brought me photographs of those. I 
don't know how they smuggled them out of China, but they 
brought me photographs of it. We handed it to the Coast Guard 
and I think the answer was, well, we don't have enough people 
to inspect this. That wasn't a good thing.
    Second thing, obviously, that still continues to stick in 
my craw is the mess up on the 110s to 123s. To this day, I 
haven't heard anyone in the Coast Guard--and you do have some 
very knowledgeable people working for you at Baltimore; they 
walked me through the vessels. But to this day I haven't heard 
anybody say this is where they screwed up. We should have taken 
a coupon; we should have known the hull wasn't ready; we should 
have done the hogging and sagging. To this day. So the Nation 
is out $100 million. We have got eight tied-up vessels. That 
tells me you lack expertise.
    And I would give you the opportunity to tell me that I am 
wrong, but those two things really jump out at me.
    I appreciate your willingness to make some changes. What I 
haven't seen, and I am curious if you have considered, is I 
can't believe that you need the best team every day. You are 
not going to face a major collision every day. You may not even 
face a major collision once a month. But when you do need a 
good team, you need a good team. Using the example of the Air 
Guard and the Reserves, who are on a daily basis we have people 
out there flying 747s, 757s, 767s in the commercial world 
within transit over to fly a C-130, C-17s as a Guardsman, and 
we get that world of experience, and when we need them they are 
there.
    Has the Coast Guard considered some sort of a reserve 
outfit where people could have a career either in the Merchant 
Marine or working for ABS or Lloyds, but also have a reserve 
commission that when you need that pool of experts for a major 
collision like you saw in San Francisco or any other similar, 
that you could call those people up and that is how they 
perform their active duty? I have got to believe that in this 
Nation there would be people who would be chomping at the bit 
for that opportunity. I am just curious if the Coast Guard has 
considered it.
    Admiral Watson. Sir, we have a Coast Guard Reserve and 
there are large numbers of those people that have their primary 
job in other elements of the maritime. Do we recruit 
specifically for Master Mariners, Chief Engineers? I think 
maybe that is the question you are asking. And the answer is 
no, we allow everybody to apply and compete on a more or less 
even playing field for the Coast Guard Reserve, and then we 
train them after they answer the service.
    Mr. Taylor. Okay, Admiral, reclaiming my time. Keeping in 
mind that this is a specialty, keeping in mind that you may 
have some 50-year-old ship captain out there who would be a 
phenomenal investigator, but who may not be up to the day-to-
day activities on one of your big cutters, or who may be, 
beyond that, financially just couldn't take that sort of hit to 
come back in the active force. But he would have all those 
years of experience in determining the cause of an accident.
    I would think it would make abundant sense for the Coast 
Guard, rather than, again, spending more money to train a 
handful of people that you are not going to need every day 
pursuing some sort of a reserve officer corps of trained 
engineers, of trained marine architects that you could call on 
when you have a major accident that you need a pool of experts 
wearing the Coast Guard uniform to make a determination.
    I would ask that you consider that as well, because, again, 
I can hear this Committee asking you to do a lot of things with 
a limited budget, and what troubles me is there are times when 
you do phenomenally well, such as Hurricane Katrina There are 
times, such as stretching the 110s to 123s, where to this day I 
don't think you have done the Nation any favors. And I think 
that this might be somewhere in between where we can accomplish 
that goal by thinking outside the normal course of action.
    Admiral Watson. Yes, sir.
    Mr. Taylor. I would ask that you or the Commandant get back 
to me on this, because I do think it is a way of getting a heck 
of a lot of expertise when we need them, and only when we need 
them, without paying for them all year long.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    I think Mr. Taylor, as he often does, has really hit on an 
outstanding idea. I know that in the Coast Guard 
reauthorization that was just shepherded through by Chairman 
Cummings and Chairman Oberstar, the Commandant--and I know he 
didn't like some portions of it because he and I have had 
conversations, but on the marine safety side was a little 
resistant to adding some civilian posts within that marine 
safety.
    I supported that and continue to support that, and I know 
that my support is based upon the fact that all of the 
testimony before this Subcommittee relative to rotation and 
career paths and things of that nature, and longevity in the 
service, point to the fact that on the marine safety side, and 
now on the marine casualty side, the Country would be better 
served with a civilian component that augments the uniform 
corps, and I think that is what Mr. Taylor was talking about. I 
had never thought of reservists, but that makes perfect sense, 
and I would ask you to take that back to the Commandant, 
because it does in fact make sense.
    Just a couple of cleanup things. I was talking to the 
Chairman and I do think, Admiral, that this business of 
exemptions or exceptions has sort of a negative connotation in 
this hearing today, and I don't think it needs to be left that 
way. I don't want anybody to be left with the impression that 
the Coast Guard, using the Chairman's analogy, would send a 
plumber to do heart surgery.
    What I indicated to the Chairman was, I am a lawyer, he is 
a lawyer, and we have continuing legal education requirements. 
Some States have equivalencies. And by virtue of being a Member 
of Congress or a member of State legislature, you get credit, 
so you don't have to sit in the classroom for two hours 
listening to some pointy-headed guy talking about rules of 
evidence, because you are actually creating laws at the 
national level. So you get credit for that.
    I assume that that forms the basis of your exemptions or 
your exceptions, but if you could perhaps supplement the record 
as to how that process works. In other words, somebody coming 
from ABS and opting out of the hull inspector course is 
different from the Chairman's example of a lawyer. Because you 
happen to be a lawyer, you don't have to take the hull course. 
So if you could do that.
    My other difficulty is--well, it is not a difficulty. 
Chairman Oberstar, the reason he is such a great Chairman is he 
often, almost always comes up with sort of the middle course 
that is good. I do think that the legislative language set up 
by the NTSB, even though I have great respect for the work they 
do, is a power grab in this instance, and we will respectfully 
disagree on that.
    So the Chairman's suggestion that both NTSB and Coast Guard 
come up with suggested modifications to your Memorandum of 
Understanding I think would be a great idea, and I would urge 
you both to accept the Chairman's invitation. Admiral, to you, 
I would say I really urge you to do it because I do get the 
sense that, absent that, the NTSB will be successful and tie-
breaks will now always be determined in favor of the NTSB 
unless you provide the majority of the Members of this 
Committee with a reasonable alternative.
    And my objection to the power grab is that the Inspector 
General's report found eight deficiencies, and you have 
acknowledged seven of those. I would just say on number four, 
which is the eighth of the eight, the Coast Guard created the 
original standards, and my understanding is you went from Hull 
Inspector or Machinery Inspector and Small Vessel Inspector 
plus Board Officer plus Facility Inspector plus Harbor Safety 
Officer to now it is either Hull Inspector or Machinery 
Inspector or Small Vessel Inspector plus the other three; and 
that is the change that caused the Inspector General to say 
that you sort of dumbed down the standards.
    I have had a chance to sort of review the resumes of the 
folks that work for the NTSB, and I have to say that all of 
them have outstanding credentials. But I would note that 95 
percent of them are former Coast Guardsmen. So you can't make 
the argument that people trained by the Coast Guard can't do 
the job when the NTSB has now hired the same people--maybe they 
pay them more money, I don't know--to do what it is the Coast 
Guard does.
    And again I would say that just making a change for change 
sake, because of the deficiencies found by the IG b the Coast 
Guard, if the IG has not looked at the qualifications of the 
folks that work for the NTSB, I think it is silly to say, well, 
let's give NTSB primacy even though their inspectors may not 
meet the qualifications that you are being criticized for. So 
change for change sake is not very attractive to me either.
    So, at the end of the day, please accept Chairman 
Oberstar's invitation; come up with modifications to the MOU 
and let's see if we can work this out in a peaceful way that 
will continue to demonstrate great cooperation between the 
Coast Guard and the NTSB.
    Ms. Higgins, last thing. I had a train derailment in my 
district and I am still waiting for your report. So if you 
could get that to me, I would very much appreciate it.
    Ms. Higgins. We will do that, sir.
    Mr. LaTourette. Thank you so much.
    Mr. Cummings. Ms. Richardson.
    Thank you very much.
    Finally, let me just ask two other questions. Admiral, when 
it comes to revocation and suspension hearings, I would imagine 
that if you have these investigators and a charge is 
appropriate, it would be likely that they would testify or 
definitely provide some type of evidence in these hearings. Is 
that a reasonable expectation?
    Admiral Watson. Yes, sir. They shouldn't even be charging a 
mariner with any kind of charge unless they have evidence.
    Mr. Cummings. Yes. I guess what I am getting at is, as you 
know from previous testimony in other hearings, a lot of times 
the mariners felt that they were not necessarily treated 
fairly. We had testimony from some judge or two--I think it was 
two judges--who had concerns about the ALJs. I guess what I am 
getting at here is if we have people who are not qualified 
doing these investigations, trying to present evidence of their 
findings in a hearing, it seems to me that there might be a 
problem with that. Would you agree?
    Admiral Watson. Yes, sir, but I don't have any evidence 
that we have used unqualified people to present a case to an 
ALJ.
    Mr. Cummings. Did you have a comment on that, Ms. Richards?
    Ms. Richards. No, sir. We didn't trace the investigations 
done by the individuals we have determined to be unqualified 
through the whole process to see if they had been adjudicated 
before an ALJ.
    Mr. Cummings. All right, I want to thank you all very much 
for your testimony. As usual, as you can see, we act in a very 
much bipartisan manner, and I think a lot has come out of this 
hearing, and I am hoping that the issues that Chairman Oberstar 
and Ranking Member LaTourette have raised and the suggestions 
that have been made here, that you will take heed and would 
hope that you would also--there are all kinds of ways to 
resolve issues; some of them you do through statute, some you 
do by way of people sitting down and working out their 
differences, or agencies sitting down. So where you can try 
your hand at that, we would love to do that, consistent with 
what Chairman Oberstar had to say.
    Again, thank you all very much and have a good day.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2582.012
    
    [GRAPHIC] [TIFF OMITTED] T2582.013
    
    [GRAPHIC] [TIFF OMITTED] T2582.014
    
    [GRAPHIC] [TIFF OMITTED] T2582.015
    
    [GRAPHIC] [TIFF OMITTED] T2582.016
    
    [GRAPHIC] [TIFF OMITTED] T2582.017
    
    [GRAPHIC] [TIFF OMITTED] T2582.018
    
    [GRAPHIC] [TIFF OMITTED] T2582.019
    
    [GRAPHIC] [TIFF OMITTED] T2582.020
    
    [GRAPHIC] [TIFF OMITTED] T2582.021
    
    [GRAPHIC] [TIFF OMITTED] T2582.022
    
    [GRAPHIC] [TIFF OMITTED] T2582.023
    
    [GRAPHIC] [TIFF OMITTED] T2582.024
    
    [GRAPHIC] [TIFF OMITTED] T2582.025
    
    [GRAPHIC] [TIFF OMITTED] T2582.026
    
    [GRAPHIC] [TIFF OMITTED] T2582.027
    
    [GRAPHIC] [TIFF OMITTED] T2582.028
    
    [GRAPHIC] [TIFF OMITTED] T2582.029
    
    [GRAPHIC] [TIFF OMITTED] T2582.030
    
    [GRAPHIC] [TIFF OMITTED] T2582.031
    
    [GRAPHIC] [TIFF OMITTED] T2582.032
    
    [GRAPHIC] [TIFF OMITTED] T2582.033
    
    [GRAPHIC] [TIFF OMITTED] T2582.034
    
    [GRAPHIC] [TIFF OMITTED] T2582.035
    
    [GRAPHIC] [TIFF OMITTED] T2582.036
    
    [GRAPHIC] [TIFF OMITTED] T2582.037
    
    [GRAPHIC] [TIFF OMITTED] T2582.038
    
    [GRAPHIC] [TIFF OMITTED] T2582.039
    
    [GRAPHIC] [TIFF OMITTED] T2582.040
    
    [GRAPHIC] [TIFF OMITTED] T2582.041
    
    [GRAPHIC] [TIFF OMITTED] T2582.042
    
    [GRAPHIC] [TIFF OMITTED] T2582.043
    
    [GRAPHIC] [TIFF OMITTED] T2582.044
    
    [GRAPHIC] [TIFF OMITTED] T2582.045
    
    [GRAPHIC] [TIFF OMITTED] T2582.046
    
    [GRAPHIC] [TIFF OMITTED] T2582.047
    
    [GRAPHIC] [TIFF OMITTED] T2582.048
    
    [GRAPHIC] [TIFF OMITTED] T2582.049
    
    [GRAPHIC] [TIFF OMITTED] T2582.050
    
    [GRAPHIC] [TIFF OMITTED] T2582.051
    
    [GRAPHIC] [TIFF OMITTED] T2582.052
    
    [GRAPHIC] [TIFF OMITTED] T2582.053
    
    [GRAPHIC] [TIFF OMITTED] T2582.054
    
    [GRAPHIC] [TIFF OMITTED] T2582.055
    
    [GRAPHIC] [TIFF OMITTED] T2582.056
    
    [GRAPHIC] [TIFF OMITTED] T2582.057
    
    [GRAPHIC] [TIFF OMITTED] T2582.058
    
    [GRAPHIC] [TIFF OMITTED] T2582.059
    
    [GRAPHIC] [TIFF OMITTED] T2582.060
    
    [GRAPHIC] [TIFF OMITTED] T2582.061
    
    [GRAPHIC] [TIFF OMITTED] T2582.062
    
    [GRAPHIC] [TIFF OMITTED] T2582.063
    
    [GRAPHIC] [TIFF OMITTED] T2582.064
    
    [GRAPHIC] [TIFF OMITTED] T2582.065
    
                                    

</pre></body></html>
